Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   MASSACHUSETTS MEDICAID
 PAYMENTS TO MILLBURY HEALTH
  CARE CENTER DID NOT ALWAYS
COMPLY WITH FEDERAL AND STATE
        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                      October 2012
                                                      A-01-12-00010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Millbury Health Care Center (Millbury) is a Massachusetts certified Medicare and Medicaid
nursing home located in Millbury, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Millbury
in accordance with Federal and State requirements from January 2009 through April 2012.

SUMMARY OF FINDING

Massachusetts Medicaid payments to Millbury did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Millbury by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions. As a result, the State agency’s Federal claim was overstated by a
total of $46,372 ($25,664 Federal share). We attributed the incorrect Medicaid payments to
clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $46,372 from Millbury and refund the Federal share of
       $25,664 and




                                                  i
   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

MILLBURY HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Millbury agreed with our finding. Millbury’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS ............................................2

          AMOUNT OWED FEDERAL GOVERNMENT ...............................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          MILLBURY HEALTH CARE CENTER COMMENTS ....................................3

          STATE AGENCY COMMENTS ........................................................................3

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO MILLBURY HEALTH CARE CENTER BY
             CALENDAR YEAR

          B: MILLBURY HEALTH CARE CENTER COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Millbury Health Care Center (Millbury) is a Massachusetts certified Medicare and Medicaid
nursing home located in Millbury, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Millbury
in accordance with Federal and State requirements from January 2009 through April 2012.

Scope

For the period January 2009 through April 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Millbury’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.

We performed fieldwork during July 2012 at Millbury in Millbury, Massachusetts; the State
agency in Boston, Massachusetts; and the CMS Regional Office in Boston, Massachusetts.

                                                1
Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Millbury officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Massachusetts Medicaid payments to Millbury did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to
Millbury by the amount of beneficiaries’ cost-of-care contributions from resources, such as
Social Security and pensions. As a result, the State agency’s Federal claim was overstated by a
total of $46,372 ($25,664 Federal share). We attributed the incorrect Medicaid payments to
clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

UNADJUSTED NURSING HOME PAYMENTS

The State agency made 97 overpayments to Millbury from January 2009 through April 2012 (see
Appendix A). Specifically, the State agency did not adjust its Medicaid payments to Millbury by
the amount of beneficiaries’ cost-of-care contributions from resources, such as Social Security
and pensions.


                                                2
               An Example of a Medicaid Overpayment for One Beneficiary

   Ms. N was a patient at Millbury during August 2010. Based on her other resources, the
   State agency calculated Ms. N’s cost-of-care contribution to be $300 a month. The State
   agency determined that the nursing home was entitled to a monthly payment of $2,500.
   Because of Ms. N’s $300 cost-of-care contribution, the State agency was responsible for
   only $2,200 of the $2,500 nursing home costs. However, the nursing home received a total
   of $2,800 ($2,500 from the State agency and $300 from Ms. N) because the State agency’s
   computer system did not adjust the payment amount to take into consideration Ms. N’s
   cost-of-care contribution. Thus, the nursing home received an overpayment of $300
   ($2,800 minus $2,500) for Ms. N’s care for the month of August.

AMOUNT OWED FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Millbury for the period January 2009 through April 2012 was overstated by a total of $46,372
($25,664 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 97 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $46,372 from Millbury and refund the Federal share of
       $25,664 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

MILLBURY HEALTH CARE CENTER COMMENTS

In written comments on our draft report, Millbury agreed with our finding. Millbury’s comments
are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               3
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO MILLBURY HEALTH CARE
                 CENTER BY CALENDAR YEAR




          Calendar     Number of         Total
           Year       Overpayments   Overpayments

           2009            16           4,169


           2010            25           12,362

           2011            35           24,909

           2012            21           4,932


          TOTAL            97          $46,372
                          APPENDIX B: MILLBURY HEALTH CARE CENTER COMMENTS 



:;j 2 \lJillbury Avenue
Mlllhury, lvlA 01527                              Millbury                                                   .'508.793.0088
                                                                                                          F<lx :,OB 7!J:l 1t.o7J
                                                   Health Carr. Center




          August 16, 2012

          Report Number: A-01-12-00010

          Michael 1. Annstrong
          Regional Inspector General for Audit Services
          Office of Inspector General
          Office of Audit Services, Region I
          JFK. Federal Building
          15 New Sudbury Street, Room 2425
          Boston, MA 02203


          Dear Mr. Annstrong;

          We are in agreement with your findings relating to the $46,372 in total overpayments for calendar years 2009 

          through 2012. 


          Thank you. 


          Sincerely, 




          Kristine A. Binette
          Administrator
                                   APPENDIX C: STATE AGENCY COMMENTS 



                                 The Commonwealth of Massachusetts
                             Executive Office of Health and Human Seroices
                                            Office of Medicaid
                                          One Ashburton Place
                                           Boston, MA 02108                                               JUDYANN BIGBY; M.D.
 DEVAL L. PATRJCK
     Governor                                                                                                    Secretary

TIMOTHY P. MURRAY                                                                                         JULIAN J. HARRIS, M.D.
Lieutenant Governor                                                                                          Medicaid Director

                September 18, 2012

                 Michael J. Armstrong
                Regional Inspector General, Audit Services
                HHS/OIG/OAS
                Region I
                JFK Federal Building
                Boston, MA 02203

                 RE: Audit Report No: A-01-12-00010

                Dear Mr. Armstrong,

                Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-0001 0
                "Massachusetts Medicaid Payments to Millbury Health Care Center Did Not Always Comply with
                Federal and State Requirements".

                Our responses to the report's specific recommendations are as follows : 

                Recommendation: 

                1) Collect overpayments totaling $46,372 from Millbury and refund $25,564, the Federal share of these 

                payments, to eMS on the next quarterly CMS-54. 


                Response: We are in agreement with this finding and will follow the procedures described in state 

                Medicaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130 

                CMR 450.237, the provider has a due process rigQUo contest the overpayment, including the right to 

                request an adjudicatory hearing and judicial review . 


                MassHealth will need the OIGs working papers identifying the specific claims in order to undertake 

                collection of the overpayments, notify Millbury and if required, defend the overpayment amounts should 

                Millbury contest the overpayment notice. If Millbury does not contest the overpayment collection or 

                does not prevail in contesting this overpayment, MassHealth will ensure that the EOHHS' Federal 

                Re': enue Unit "vi!! ~eturn the FederClI share all the <:ippropriate eMS-54 


                Recommendation:
                2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue to be
                   identified , collected and refunded .

                Response: MassHealth is in agreement with this recommendation and will ensure that periodic reviews
                and audits continue to be conducted to identify, collect and refund overpayments .

                Sincerely,


                M.\Ho~\)    \':SA,
                MCdi'1id'bI~~')
                                           M,Sc
